Nos. 19-431 & 19-454
Little Sisters of the Poor v. Pennsylvania, et al.
Donald J. Trump, et al. v. Pennsylvania, et al.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief Amicus Curiae
of Center for Constitutional Jurisprudence in Support of Petitioners contains 3430
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 9, 2020.

ANTHONY T. CASO

